Certificate of Compliance
i

No. 21Adam Billings,
Petitioner.;
v.
United States of America,
Respondent,
As required by the Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains 3,206 words, excluding the parts of the
petition that are exempted by Supreme Court Rule
33.1(d)
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on May 1, 2021

. :Yit

ADAM E. HILLINGS #32207-045

Certificate of Service

